Office of Inspector General
U.S. Department of Labor
Office of Audit




                 Welfare-to-Work Formula
                      Grant Program
                Implementation Progress




                           Report Number: 03-99-018-03-386
                           Date Issued:
Welfare to Work Formula Grant Program Implementation Progress


                                                TABLE OF CONTENTS

                                                                                                                                            Page

ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

OBJECTIVES, SCOPE, METHODOLOGY AND CRITERIA

          Objectives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
          Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
          Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
          Criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

FINDINGS AND RECOMMENDATIONS

Section I.           Slow Implementation of the WtW Formula Grant Program . . . . . . . . . . . . . . . . . . . . 8

                     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

Section II.          Factors Affecting the Implementation of the WtW Formula Grant Program . . . . . . . 12

                                 Restrictive Nature of the WtW Statute . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

                                 Availability of Less Restrictive TANF Funds . . . . . . . . . . . . . . . . . . . . . . . . 17

                                 Complexities of Implementing a New Federal Program
                                 at the State and Local Level . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

                     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25




U.S. Department of Labor - Office of Inspector General                                                                                 Page        i
Welfare to Work Formula Grant Program Implementation Progress




APPENDICES

       A.     List of State and Local Agencies Visited and Federal
              WtW Formula Grant Awards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

       B.     Federal Expenditures at the Time of Our Audit Fieldwork . . . . . . . . . . . . . . . . . . . . 28

       C.     Federal Expenditures and Recipients Enrolled at the Time of
              Our Audit for Local Agencies Visited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

       D.     List of Local Agencies with Enrollments of Less Than 100 and
              Expenditures of Less Than 10 Percent of the Federal Award Amount . . . . . . . . . . . 30

       E.     Matrix of Implementation Factors Found at State and
              Local Agencies Visited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

       F.     Agency’s Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32




U.S. Department of Labor - Office of Inspector General                                                                 Page ii
Welfare to Work Formula Grant Program Implementation Progress

                                     ACRONYMS

              AFDC                 Aid to Families with Dependent Children

              BBA                  Balanced Budget Act of 1997

              CCDF                 Child Care and Development Fund

              CAOs                 County Assistance Offices

              DHHS                 U.S. Department of Health and Human Services

              DOL                  U.S. Department of Labor

              DPW                  Department of Public Welfare

              ETA                  Employment and Training Administration

              FY                   Fiscal Year

              GED                  General Education Diploma

              JTPA                 Job Training Partnership Act

              NYDOL                New York Department of Labor

              PRWORA               Personal Responsibility and Work Opportunity Reconciliation
                                   Act of 1996

              PICs                 Private Industry Councils

              SDAs                 Service Delivery Areas

              SSBG                 Social Services Block Grant

              TANF                 Temporary Assistance for Needy Families

              WIA                  Workforce Investment Act of 1998

              WIBs                 Workforce Investment Boards

              WtW                  Welfare-to-Work


U.S. Department of Labor - Office of Inspector General                                 Page iii
Welfare to Work Formula Grant Program Implementation Progress

                                   EXECUTIVE SUMMARY

                               The Welfare-to-Work (WtW) formula grant program was authorized by
    Background
                               the Balanced Budget Act of 1997 (BBA) to move hard-to-employ
                               welfare recipients into unsubsidized jobs and economic self-sufficiency.
The Act authorized $3 billion for WtW grants in Fiscal Years (FYs) 1998 and 1999. After certain set-
asides, approximately 25 percent is awarded through a competitive grant process, and the remaining 75
percent is distributed by formula to the states. The formula grants are designed to assist states in
meeting their welfare reform objectives to move hard-to-employ welfare recipients into employment.
WtW formula grant funds must be spent within 3 years of the award.

The Office of Inspector General (OIG) performed an audit to determine the status of program
implementation for seven state WtW formula grantees. The 7 states represented 48 percent of the $1
billion in formula grant funds awarded for FY 1998.


                              We found that all but one of the seven states we visited were slow in
    Results
                              implementing their WtW program because of factors that were either
                              unforeseen or not considered when the states developed their WtW
service and outcome levels and spending estimates. Specifically:

C        WtW program and administrative requirements mandated by the authorizing legislation were
         viewed as restrictive by WtW grantees, causing difficulties in identifying eligible clients,
         arranging necessary matching funds, and developing financial reporting systems capable of
         tracking expenditures by client populations, cost categories, and program activities.

C        At the same time, as grantees were struggling with the perceived challenges of the WtW
         requirements, sufficient funding under the less restrictive Temporary Assistance for Needy
         Families (TANF) program was available to serve the client population targeted by WtW. As a
         result, local service providers with access to the less restrictive TANF funds opted to spend
         those funds first.

C        Launching WtW, a major new Federal program, required that state and local plans be
         developed and approved, service provider procurement actions completed, and coordination
         arrangements with other agencies finalized. Moreover, the entities responsible for WtW are, in
         most cases, also responsible for implementing the Workforce Investment Act of 1998 (WIA),
         which will make sweeping reforms to the Nation’s workforce development system, in their
         respective jurisdictions.




U.S. Department of Labor - Office of Inspector General                                          Page 1
Welfare to Work Formula Grant Program Implementation Progress

Some of these factors have been addressed by program modifications that are included in the
President’s and Congress’ proposed reauthorization of the WtW program. However, if these states
continue at the current pace, the WtW formula grant funds will not be spent within the mandated 3-year
period, in turn limiting the number of individuals who will obtain the assistance needed in moving from
welfare into employment.


                                      To accelerate the progress in implementing the WtW formula
 Recommendations
                                      grant program, the OIG recommends that the Employment and
                                      Training Administration (ETA):

       •       Require state WtW formula grantees to submit expenditure plans that reflect a more
               realistic estimate of program operations and the time needed to spend the allotted WtW
               formula funds.

       •       Seek legislative changes to permit the Secretary of Labor to amend the length of time
               the states have to spend the WtW formula grant funds.

       •       Work with the U.S. Department of Health and Human Services’ (DHHS’)
               Administration for Children and Families to develop a strategy that effectively integrates
               TANF and WtW so that all funding sources are used to provide workforce investment
               services to TANF and WtW eligible recipients.

       •       Continue to pursue the legislative changes currently being proposed to simplify and
               expand the definition of eligible recipients more accurately to reflect characteristics of
               hard-to-employ, long-term TANF recipients.

       •       Continue to pursue the legislative changes currently being proposed to streamline and
               simplify financial reporting requirements.

       •       Explore, with states not reviewed as part of this audit, whether the matching
               requirement is an issue that affects their implementation of the WtW formula grant
               program, and seek appropriate legislative changes if needed.

       •       Continue to take an active role in assisting states and local agencies that are having
               problems implementing their WtW programs, and provide the necessary technical
               assistance to help them address barriers that may be impeding progress in getting the
               program fully operational.




U.S. Department of Labor - Office of Inspector General                                            Page 2
Welfare to Work Formula Grant Program Implementation Progress


                                 Prior to the issuance of our draft report, we provided the Office of
 Agency’s Response
                                 Welfare-to-Work an advance copy for comment. The comments
                                 received were incorporated in the details of the draft report. In his
response to the draft report, the Assistant Secretary for Employment and Training acknowledged that
the Agency’s previous comments had been incorporated and no additional comments were provided.




U.S. Department of Labor - Office of Inspector General                                         Page 3
Welfare to Work Formula Grant Program Implementation Progress

              OBJECTIVES, SCOPE, METHODOLOGY AND CRITERIA

                                       The overall audit objective was to determine the progress made by
 Objectives
                                       selected states and local agencies1 toward implementing the Welfare-to-
                                       Work (WtW) formula grant program. Our specific audit objectives
were to:

          •         determine if expenditure and enrollment rates were consistent with the rates included in
                    the approved WtW state plans;

          •         gain an understanding of the issues or problems that affected the implementation of the
                    WtW formula grant program at the state and local level; and

          •         determine what role the state and local Temporary Assistance for Needy Families
                    (TANF) agencies have played in the implementation of the WtW formula grant
                    program.

                               Our audit covered seven states. We judgmentally selected six states that
 Scope
                               received the largest WtW formula grant awards for Fiscal Year (FY)
                               1998. Texas, which had the third highest award amount, was not
selected because it was included in a previous limited Office of Inspector General (OIG) review. New
Jersey was added to our sample because of its proximity to the OIG office responsible for performing
the fieldwork.

For each of the 7 states, we judgmentally selected 4 local agencies for a total of 28. The selection was
based on the four local agencies that received the highest amount of WtW formula grant funds from the
state. However, we did not visit the local agencies selected for Michigan because it had not
implemented the WtW formula grant program at the local level. (See Appendix A for a list of the
states, local agencies, and grant awards for the sites visited.)

The total amount of FY 1998 formula grant funds awarded to the 7 states selected for review was
$496,501,825. This represented 48 percent of the total formula grant funds awarded to all of the states
that chose to participate in the WtW formula grant program. The total of FY 1998 formula grant funds
awarded to the 24 local agencies visited was $229,309,162. This represented 46 percent of the total
formula grant funds awarded to the 7 selected states and 22 percent of the formula grant funds
awarded to all of the states.




          1
           States must allocate 85 percent of the grant funds to service delivery areas (SDAs) designated under the Job Training
Partnership Act (JTPA). At the SDA level, funds are administered by a private industry council (PIC) or by an alternative agency
designated by the governor. States that started implementing WIA have designated their PICs as workforce development or
investment boards. Thus, for reporting purposes, we refer to any entity within the SDA that received a sub-state allocation of WtW
formula grant funds as a “local agency.”

U.S. Department of Labor - Office of Inspector General                                                                   Page 4
Welfare to Work Formula Grant Program Implementation Progress

We reviewed the states’ and local agencies’ performance and the status of their WtW formula grant
program implementation at the time of our fieldwork (May 24 through July 26, 1999).

                              We interviewed the WtW formula grant program directors of the 7
 Methodology
                              states and 24 local agencies to obtain answers to questions developed to
                              meet our objectives.

To determine the extent of the implementation of the WtW formula grant program, we performed an
analysis of the states’ and local agencies’ financial and performance data that was reported to the
Employment and Training Administration (ETA) on the most current Quarterly Financial Status Report
available (March 31, 1999), and subsequent unreported data that was available at the time of our visits.
We did not audit the financial and performance data for accuracy.

To gain an understanding of TANF, we interviewed program officials from the U.S. Department of
Health and Human Service’s (DHHS) Administration for Children and Families. DHHS officials also
provided us financial reports of TANF awards and expenditures for states through December 31,
1998, the most current data available at the time of our field work.

The audit was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States.

                              The following criteria were used in performing our audit:
 Criteria


        •       Personal Responsibility and Work Opportunity Reconciliation Act of 1996

        •       Balanced Budget Act of 1997

        •       Title 20 of the Code of Federal Regulations (CFR) Part 645, WtW Grants; interim
                Rule dated November 18,1997

        •       Workforce Investment Act of 1998

        •       Title 20 CFR Part 652, WIA; Interim Final Rule issued April 25, 1999

        •       DOL ETA Training and Employment Guidance Letters on WTW




U.S. Department of Labor - Office of Inspector General                                         Page 5
Welfare to Work Formula Grant Program Implementation Progress

                                                 BACKGROUND

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (PRWORA)
was enacted August 22, 1996. The PRWORA, a comprehensive welfare reform bill, established the
TANF program to supersede the Aid to Families with Dependent Children (AFDC), the Job
Opportunities and Basic Skills Training, and the Emergency Assistance programs. The TANF
provisions substantially changed the Nation’s welfare system from one in which cash assistance was
provided on an entitlement basis to a system in which the primary focus is moving welfare recipients to
work and promoting family responsibility. TANF recipients are required to work after 2 years on cash
assistance. They will be ineligible for TANF after having received cash assistance for 5 cumulative
years.

On August 5, 1997, the President signed the BBA. This legislation amended certain provisions of the
Social Security Act and authorized the Secretary of Labor to provide WtW grants to states and local
communities for transitional employment assistance to move hard-to-employ TANF recipients into
unsubsidized jobs and economic self-sufficiency. The BBA authorized $3 billion for WtW grants in
FYs 1998 and 1999. After certain set-asides, approximately 25 percent will be distributed through
a competitive grant process and 75 percent will be distributed by formula grants to the states. Eighty-
five percent of the state formula grant must be passed through to service delivery areas (SDAs)
established under the Job Training Partnership Act (JTPA) program. 2 The states must pledge one
dollar of non-Federal funding to match every two dollars of Federal funding provided under the
formula. At least half of the match must be in cash. The state WtW matching funds are in addition to
the maintenance-of-effort funds that are required under TANF block grants.

The WtW grant funds must be used for hard-to-employ TANF recipients, specifically, TANF
recipients on long-term welfare assistance, TANF recipients with characteristics of long-term welfare
dependence, and/or noncustodial parents of TANF recipients. At least 70 percent of the funds must be
spent on the hardest-to-serve, long-term TANF recipients. These are TANF recipients who have
received benefits for at least 30 months, or will become ineligible for assistance with the next 12
months, and have two of three specified barriers to employment. Up to 30 percent of the grant funds
may be spent on TANF recipients with characteristics of long-term welfare dependence such as
dropping out of high school, teenage pregnancy, or poor work history. Additionally, individuals are
eligible under the 30 percent provision if they have the characteristics of long-term welfare dependence
and are a noncustodial parent of a minor child whose custodial parent is a TANF recipient or they have
the characteristics of long-term welfare dependence but cannot receive TANF because they have
reached the lifetime limitation.

To receive WtW formula funds, a state is required to submit a plan for the use and administration of the
grant funds to the U.S. Department of Labor (DOL). DOL determines whether the plan meets the
statutory requirements.

         2
            The Workforce Investment Act of 1998 replaced JTPA, and effective July 1, 2000, PICs will be replaced by local
Workforce Investment Boards (WIBs). The WIBs will establish a means for coordinating workforce investment, adult education and
literacy, and vocational rehabilitation services through One-Stop Centers.

U.S. Department of Labor - Office of Inspector General                                                               Page 6
Welfare to Work Formula Grant Program Implementation Progress

For FY 1998, ETA awarded $1,025,787,658 in WtW formula grant funds to 44 states and
Washington, D.C., Puerto Rico, the Virgin Islands, and Guam. ETA was required to obligate these
funds by September 30, 1998. WtW grant funds must be spent within 3 years of the grant award. Six
states declined to participate in the WtW formula program for FY 1998.

ETA published an Interim Final Rule in the Federal Register on November 18, 1997, implementing the
WtW grant provisions of Title IV, Part A of the Social Security Act, as amended by the enactment of
the BBA.




U.S. Department of Labor - Office of Inspector General                                     Page 7
Welfare to Work Formula Grant Program Implementation Progress

                            FINDINGS AND RECOMMENDATIONS


 Section I.           Slow Implementation of the WtW Formula Grant Program


Nationwide reported expenditures and the number of participants enrolled show slow implementation
of the WtW formula grant program. As of March 31, 1999, the most recent reported data available
during our fieldwork, state formula grantees reported expenditures of over $83 million, which
represented approximately 8 percent of the FY 1998 grant awards. The reported number of
participants enrolled was 38,5983.

Our audit of 7 state formula grantees, which received 48 percent of the FY 1998 nationwide formula
grant awards, revealed similar results. As of March 31, 1999, the 7 state formula grantees taken as a
whole reported only 5 percent of their FY 1998 formula grant awards were spent. Additionally, only
one of the seven grantees had expenditure rates that were consistent with its approved WtW state plan.

If these low expenditure rates continue, it is our opinion that the FY 1998 and FY 1999 WtW formula
grant fund allocations will not be spent within the 3-year period permitted by the authorizing legislation.
This in turn limits the number of individuals who will obtain assistance needed in moving from welfare
into employment.

The following presents the results of our audit of the progress made by states and local agencies toward
implementing the WtW program.

Expenditure and Enrollment Rates for the States and Local Agencies Visited

According to the most current Quarterly Financial Status Report available during our fieldwork, all the
states in our audit, except Illinois, had spent only 6 percent or less of their Federal WtW formula grant
awards. Including state matching funds in both the total award amount and the total expenditures
increases the percent of award expended for Illinois and Pennsylvania only (to 51 and 18 percent,
respectively) and reduces the percent of award spent for California, as shown in the following table:




          3
            The source for the expenditure and enrollment data was ETA’s National Quarterly Financial Status Report. We did not
audit the accuracy of the reported data.

U.S. Department of Labor - Office of Inspector General                                                                  Page 8
Welfare to Work Formula Grant Program Implementation Progress


                 FY 1998 WtW FORMULA GRANT FUND EXPENDITURES AS A PERCENT OF AWARD


                                                                                     Expenditures                     Percent of
        State         FY 1998 WtW Formula Grant Funds                                    as of                      Expenditures to
       Formula                                                                       March 31, 1999                  Grant Funds
       Grantee
                      Federal    State Match           Total          Federal             State        Total    Federal Total
    California       $190,417,24 $95,208,624        $285,625,870     $11,311,430         $1,298,178 $12,609,608   6%     4%
                              7
    New York        $96,886,094     $48,443,047     $145,329,141      $1,237,392          $461,916    $1,699,308      1%       1%
    Florida         $50,756,512     $25,378,256      $76,134,768        $407,835                 $0      $407,835     1%       1%
    Illinois        $48,662,838     $24,331,419      $72,994,257     $12,895,165        $24,331,419 $37,226,584      26%       51%
    Pennsylvania $44,295,711        $22,147,856      $66,443,567           $3,854       $12,147,628 $12,151,482       0%       18%
    Michigan        $42,226,331     $21,113,166      $63,339,497                $0               $0            $0     0%       0%
    New Jersey      $23,257,092     $11,628,546      $34,885,638        $160,990                 $0      $160,990     0%       0%
    Total            $496,501,82 $248,250,913       $744,752,738     $26,016,666        $38,239,141 $64,255,807       5%       9%
            Source: ETA


We also compared planned to actual Federal4 expenditures as of March 31, 1999, and found only
Illinois met its planned expenditure rate. Also, at the time of our fieldwork, Michigan had suspended
implementing its WtW formula grant program; thus, no planned expenditures were available. The
following shows the comparison of planned to actual Federal expenditures for the remaining states:

                       COMPARISON OF PLANNED AND ACTUAL FEDERAL EXPENDITURES
                                         AS OF MARCH 31, 1999



                      State              Expenditures of Federal Grant                                    Percent of
                     Formula                Funds as of 3/31/1999                      Difference          Actual to
                     Grantee                                                                               Planned
                                         Planned                 Actual
                  California               $28,562,587            $11,311,430            ($17,251,157)        40%
                  New York                 $17,400,000             $1,237,392            ($16,162,608)         7%
                  Florida                  $19,414,404               $407,835            ($19,006,569)         2%
                  Illinois                 $11,641,296            $12,895,165               $1,253,869       111%
                  Pennsylvania             $44,295,711                 $3,854            ($44,291,857)         0%
                  New Jersey               $11,628,546               $160,990            ($11,467,556)         1%
                  Total                 $132,942,544             $26,016,666          ($106,925,878)         20%


In addition to examining Federal expenditures reported as of March 31, 1999, we also obtained the
most current expenditure amounts available at the time of our visits to the seven states. This updated
data did not reflect any significant change in each state’s progress in implementing its WtW formula
grant program. See Appendix B for the most current expenditure data for each state visited.




            4
            This analysis was limited to Federal funding only because planned state-level expenditures were not available for all seven
states in our sample.

U.S. Department of Labor - Office of Inspector General                                                                        Page 9
Welfare to Work Formula Grant Program Implementation Progress

While ETA’s planning guide and instructions for submitting annual state plans required state formula
grantees to provide performance goals and outcomes for the grant, it did not require any estimates for
quarterly enrollment data. Therefore, no data was available to compare the planned to actual number
of participants for the seven states visited.

Of the 24 local agencies, we found 15 had few (less than 100) or no participants enrolled in the WtW
formula grant program and spent less than 10 percent of their awarded WtW formula grant funds. The
total amount of WtW formula grant funds awarded to these 15 local agencies was over $136 million.
For detailed data on expenditures and enrollments for all 24 local agencies visited, see Appendix C.
See Appendix D for data on the 15 local agencies with fewer than 100 participants enrolled and less
than 10 percent of their grant funds spent.

States May Not be Able to Spend Their WtW Formula Grant Funds Within the Required
Time Frame

Section 5001.(a)(1)(5)(C)(vii) of the BBA states: “An entity to which funds are provided under this
paragraph shall remit to the Secretary of Labor any part of the funds that are not expended
within 3 years after the date the funds are so provided.” This was promulgated in Title 20 of the
Code of Federal Regulations (CFR) Part 645.233 of the WtW regulations.

At the current low expenditure and enrollment rates reflected in the foregoing analysis, it is our opinion
that states and local agencies will not spend the FY 1998 funds within the 3-year time frame. As
shown in Appendix B, most states have spent less than 10 percent of the Federal funds in the first 9
months of the program.

This situation will be further compounded when the states are awarded the FY 1999 allocation of WtW
formula grant funds, which is expected by September 30, 1999. Preliminary planning estimates indicate
that, on average, states will receive approximately 93 percent of their       FY 1998 awards. Thus,
most of the states and local agencies we visited will have to significantly increase expenditure and
enrollment rates in order to spend the WtW formula grant funds within the permitted time period. It is
our opinion that these increases will not be achieved unless the factors discussed in the Section II of our
report are addressed.

In summary, most states are slow in implementing the WtW formula grant program and this will
continue unless issues impeding implementation are addressed. However, even if the implementation
problems are resolved, state and local agencies will need revised plans that reflect a more realistic
estimate of expenditure and enrollment rates for the WtW formula grant program. Once these revised
plans have been completed, ETA needs to determine how much more time will be needed for each
state to spend grant funds effectively and efficiently. ETA can use this determination to seek changes in
the time limitation provisions of the authorizing law.



 Recommendations

U.S. Department of Labor - Office of Inspector General                                            Page 10
Welfare to Work Formula Grant Program Implementation Progress


We recommend that the Assistant Secretary for Employment and Training:

       1.      Require states to submit expenditure plans that reflect a more realistic estimate of
               program operations and the time needed to spend the allotted WtW formula grant
               funds.

       2.      Seek legislative changes to permit the Secretary of Labor to amend the length of time
               the states have to spend the WtW formula grant funds.




U.S. Department of Labor - Office of Inspector General                                          Page 11
Welfare to Work Formula Grant Program Implementation Progress


 Section II. Factors Affecting the Implementation of the WtW Formula
             Grant Program


Our audit identified a number of factors contributing to the slow implementation of the WtW formula
grant program. These issues were either unforeseen or not considered when states were developing
program implementation time and spending estimates. To address some of these issues, changes in the
law authorizing WtW will have to be sought. Other issues will have to be addressed by ETA working
with states and other agencies that provide welfare related funds. Specifically, we found the following
issues in one or more of the states we visited.

          C         The restrictive nature of the WtW statute limits the population of TANF recipients
                    eligible for WtW and places administrative burdens on local agencies.

          C         State and local agencies have used less restrictive TANF funds to provide employment
                    and training services to TANF recipients, resulting in a low priority being given to the
                    use of WtW funds.

          C         The complexities of implementing a new program such as WtW at the state and local
                    level took more time than originally planned. Moreover, WtW is being implemented at
                    the same time states and local agencies are preparing for the Workforce Investment Act
                    of 1998 (WIA).


Welfare Reform Background

PRWORA ended an individual’s entitlement to AFDC, required families to work after 2 years on cash
assistance, imposed a 5-year limit on welfare benefits, and established strong work activity
requirements. PRWORA allowed states significant flexibility in designing their programs, setting
eligibility criteria, and defining the assistance and services available to recipients. States are subject to
sanctions if they fail to meet work participation rates.

When the states agreed to welfare reform, they received a commitment from the Federal Government
that their annual TANF funding level would remain constant until 2002 when authorization for the
national welfare reform legislation expires. The amount of annual funding, in the form of block grants, is
based on the amount of Federal funds that the state received from 1992 to 1995 for the programs
replaced by TANF.5 The national total of TANF block grants is over $16 billion annually. PRWORA
also contained a maintenance-of-effort provision which requires states to provide 75 to 80 percent of
their historic level of funding.



          5
            States received the highest of the three following amounts: Federal expenditures for FY 1994, FY 1995, or the average
Federal expenditures for FYs 1992 through 1995.

U.S. Department of Labor - Office of Inspector General                                                                  Page 12
Welfare to Work Formula Grant Program Implementation Progress

The following discusses details of the factors affecting implementation of the WtW formula grant
program that were identified during our audit. See Appendix E for a summary of the factors at each of
the sites visited.


                                                           The eligibility criteria and state matching fund
 Restrictive Nature of the WtW Statute
                                                           requirements in the WtW statute are considered
                                                           restrictive by state WtW formula grantees and
their local agencies. These restrictions have caused states and local service providers either to spend
additional planning time to conform with the requirements, or simply to use alternative funding sources
that are less restrictive to serve individuals who may be eligible to participate in WtW. (See page 17
for our discussion on the availability of less restrictive TANF funds.) Specific problems associated with
WtW statutory requirements are:

                C       the eligibility criteria limits the number of individuals eligible for WtW,

                C       the financial reporting requirements necessitate local agencies and service
                        providers to track and report costs on three different levels, and

                C       the matching provision requirement for states to contribute one dollar in state
                        funds for every two dollars in Federal WtW grant funds awarded causes delays
                        in implementation until state funding becomes available.

The following discusses the restrictions that state and local agencies have told us are problems in
implementing the WtW formula grant program.

        Eligibility Requirements

        In every state and most of the local agencies that we visited, we were told that the WtW
        eligibility criteria was too restrictive.

        The WtW statute, as promulgated in 20 CFR Part 645.212, requires that at least     70
        percent of the WtW funds be expended on individuals who are long-term, hard-to- employ,
        TANF recipients who meet at least two of three barriers to employment. The three barriers
        are:




                1.      has not completed secondary education or obtained a GED and has low
                        reading and math skills;

                2.      requires substance abuse treatment for employment; and

U.S. Department of Labor - Office of Inspector General                                                Page 13
Welfare to Work Formula Grant Program Implementation Progress


               3.       has a poor work history.

       The WtW statute, as promulgated in 20 CFR Part 645.213, also permits up to                  30
       percent of the WtW funds to be spent on:

               1.       TANF recipients with characteristics associated with long-term welfare
                        dependence, such as dropping out of high school, teenage pregnancy, or poor
                        work history;

               2.       individuals who have characteristics associated with long-term welfare
                        dependence, are a noncustodial parent of a minor child, and the custodial
                        parent of the minor child is receiving TANF assistance; and

               3.       individuals who have characteristics associated with long-term welfare
                        dependence and who would be eligible to receive TANF assistance but cannot
                        because they have reached either the Federal or state imposed lifetime limit.

       State and local officials view the 70 percent barrier requirement as too restrictive since it limits
       the eligible population. Specifically, they believe that a high school diploma and/or GED may
       represent an artificial barrier when compared to an individual’s actual reading and math levels.

       For example, in attempting to implement the WtW formula grant program, Michigan officials
       determined that only 7 to 8 percent of the average, monthly, work-ready, welfare caseload was
       eligible under the current 70 percent eligibility criteria. Michigan officials told us that they
       believe the eligible population of TANF recipients would expand if the eligibility requirements
       were changed to increase the number of barriers and have the recipients meet only one of them.
       This would then allow local workforce development boards to serve more WtW eligible
       individuals with WtW funds.

       New Jersey officials likewise believe that the universe of recipients under the     70
       percent provision could increase if the number of barriers were expanded. They also believe
       that a high school diploma or GED may represent an artificial barrier when compared to an
       individual’s actual reading and math levels.

       Officials from the remaining state and local agencies we visited had similar views of the eligibility
       requirements.
       In addition to limiting the eligible population of recipients, officials in one state attributed the
       planning problems they have experienced to WtW’s strict eligibility requirements. New York
       officials told us that such requirements caused them to spend more planning time in developing
       the relationship between the workforce investment and TANF local agencies. Time was
       needed to develop the process for receiving referrals from TANF agencies, which is more
       complicated than previously required under JTPA. Additionally, the process was more difficult

U.S. Department of Labor - Office of Inspector General                                             Page 14
Welfare to Work Formula Grant Program Implementation Progress

       to accomplish due to the limited staff at the TANF agencies and the fact that the TANF
       management information system was not designed to capture the needed data.

       Financial Reporting Requirements

       WtW’s financial reporting requirements are viewed as too restrictive because they require
       WtW service providers to track costs on three levels. As provided in ETA’s instructions for
       reporting financial data on WtW formula grants, these levels are:

               1.      Total expenditures must be tracked and reported against the 70 percent
                       minimum/30 percent maximum cost limitations. This requirement includes all
                       costs incurred by any service provider or subcontractor.

               2.      The 15 percent administrative cost limitation and the Federal technology
                       computerization expenditures must be tracked and reported separately.

               3.      All program activity expenditures must be tracked and reported separately.

       To comply with the above requirements, WtW grantees must issue financial reporting
       instructions to all service providers and subcontractors about how costs should be recorded,
       tracked, and reported. Since these reporting requirements apply to total Federal expenditures,
       the inability of subgrantees to record, track, document, and report costs may adversely affect
       the grantee’s ability to report accurate and complete Federal expenditures. Each of these
       reporting requirements may require a major modification to the grantee’s or service provider’s
       accounting system.

       Michigan indicated that a secondary reason for not operating the WtW program was the
       restrictive and burdensome administrative requirements, i.e., 70 percent minimum/ 30
       percent maximum expenditure limitation and the financial reporting requirements.

       WtW local agencies in California, Illinois, and New Jersey, also believed that the financial
       reporting requirements were too restrictive. In New Jersey, neither the State nor the WtW
       local agencies fully understood WtW’s financial reporting requirements.




U.S. Department of Labor - Office of Inspector General                                         Page 15
Welfare to Work Formula Grant Program Implementation Progress

       State Matching Requirement

       One of the seven states we visited had problems in identifying acceptable matching funds at the
       state level. The State’s attempts to encourage local WtW administrative entities’ participation
       in meeting the matching requirement contributed to the delay in program implementation at the
       local level. Officials at a second state we visited believe that the WtW state matching
       requirement was too restrictive and should be reduced or eliminated.

       The WtW statute, as promulgated in 20 CFR Part 645.300, requires state WtW formula
       grantees to contribute a dollar in state matching expenditures for every two dollars awarded in
       WtW formula grant funds. At least half of the state’s matching expenditures must be made in
       the form of cash. The following discusses details of state matching problems we found during
       our audit:

               Florida

               Florida submitted its initial State plan to DOL on April 6, 1998. However, it was not
               approved until September 25, 1998, because Florida’s legislature did not appropriate
               matching funds. Therefore, Florida negotiated with DOL to add an addendum to the
               State plan which provided that the matching fund requirement would be met through a
               variety of State funded initiatives. Florida officials told us that because they cannot
               require local agencies to provide the matching funds, the State encouraged local
               agencies to include in their WtW plan a description of how they would assist the State
               in meeting the matching requirement. This matching provision was cited by Florida as
               one of several major issues in implementing WtW at the local level and was confirmed
               by the four local agencies we visited.

               Michigan

               Michigan’s State legislature appropriated matching funds for its FY 1998 WtW formula
               grant which was approved on January 29, 1998. After attempting to implement the
               WtW formula grant program, Michigan decided to suspend operations and matching
               funds previously appropriated by the Michigan legislature were withdrawn. State
               officials told us that these actions were taken based on the prospect that the WtW
               statute would be amended to ease the         70 percent two-barrier requirement and
               soften the State matching requirements, at which time the State would consider
               operating the program. Michigan officials said they believe the program would be more
               manageable if the matching requirement were reduced, eliminated, or replaced with a
               non-cash requirement.




U.S. Department of Labor - Office of Inspector General                                         Page 16
Welfare to Work Formula Grant Program Implementation Progress

The state and local officials we visited believe that WtW’s current eligibility criteria are too restrictive
and preclude the enrollment of many long-term TANF recipients who would benefit from the WtW
program. Additionally, some state officials also believe that reducing or eliminating the state matching
requirement would ease the burden of implementing the WtW formula grant program.


                                                        TANF grant funds have provided state and local
 Availability of Less Restrictive TANF
                                                        agencies with less restrictive resources to deliver
 Funds
                                                        workforce investment services (job training and
                                                        placement services) to WtW eligible recipients.
The availability of these funds occurred because the states experienced significant welfare caseload
reductions while being assured constant levels of annual TANF funding based on years when the
welfare caseload was higher. This gave states a larger-than-expected balance of TANF funds and
enabled them to provide workforce investment services to welfare recipients, including those targeted
by the WtW program. Additionally, in some states, welfare reform has consolidated the resources and
delivery of workforce investment services to welfare recipients. All of this has resulted in an
environment where local service providers have access to TANF and other funding sources (such as
the JTPA) that are considered less restrictive compared to WtW. Thus, local service providers prefer
to spend the less restrictive TANF funds first.

The following table depicts the change in welfare caseloads for each state we visited and the Nation as
a whole, at the time of enactment of the PRWORA (August 1996) compared to the latest month the
data was available (March 1999).




U.S. Department of Labor - Office of Inspector General                                               Page 17
Welfare to Work Formula Grant Program Implementation Progress



                                  WELFARE CASELOAD REDUCTIONS



                 State
                Formula            August               March                  Net
                Grantee             1996                1999                Reduction

            California                  2,581,948            1,818,197         30%
            Florida                       533,801              198,101         63%
            Illinois                      642,644              382,937         40%
            Michigan                      502,354              263,583         48%
            New Jersey                    275,637              175,223         36%
            New York                    1,143,962              828,302         28%
            Pennsylvania                  531,059              312,363         41%
            Total                      6,211,405            3,978,707          36%
            National Total            12,241,489            7,334,976          36%
                Source: DHHS


According to DHHS’ guide entitled “Helping Families Achieve Self Sufficiency,” states have
received tremendous financial benefits from the flexibility available under TANF. The DHHS
acknowledges that many states have unobligated TANF funds available allowing them an opportunity to
invest in families with significant barriers to employment or provide additional support to low-income
working families.

According to an overall summary of state spending of Federal TANF funds for the period
FY 1997 through the first quarter FY 1999, $4.2 billion remains unobligated and still available for
expenditure. With the exception of Illinois (which we note also had the highest rate of WtW
expenditures), each state we visited had a significant unobligated balance of TANF funds as of
December 31,1998. Unobligated balances represent funds allocated that have been neither obligated
nor committed by the state. These unobligated balances remain in the Federal treasury until states have
an immediate need to draw down the dollars.

The following table lists the unobligated balances of Federal TANF funds for the period FY 1997
through the first quarter of FY 1999 for each of the seven states we visited and the nation as a whole:




U.S. Department of Labor - Office of Inspector General                                          Page 18
Welfare to Work Formula Grant Program Implementation Progress


                         UNOBLIGATED BALANCES OF FEDERAL TANF FUNDS
                        FOR FY 1997 THROUGH THE FIRST QUARTER OF FY 1999



                                         State         Unobligated
                                        Formula       Balances as of
                                        Grantee         12/31/98

                                    California           $586,287,274
                                    Florida              $323,971,177
                                    Illinois               0
                                    Michigan             $166,944,820
                                    New Jersey           $242,055,006
                                    New York             $716,614,742
                                    Pennsylvania         $144,427,548
                                    Total             $2,180,300,567
                                    National Total    $4,211,853,663
                                    Source: DHHS




Effects of Available TANF and Other Funding Sources on Implementing WtW for the States
Visited

Welfare reform, with its emphasis on moving recipients to work activities, has resulted in working
relationships between local TANF and workforce investment agencies. Thus, local agencies
responsible for administering and providing workforce investment services have access to multiple
financial resources such as TANF funds, JTPA, Federal and state education funds, state program
funds, and WtW funds. As a result, the local agencies can use the less restrictive funds, of which a
majority is from TANF, to serve WtW-eligible TANF recipients without having to adhere to the
restrictive statutory requirements under the WtW program as discussed in the previous section.

The following table shows state expenditures of Federal TANF funds on work activities for the period
July 1 through December 31, 1998. Work activities include, but are not limited to, job search, work
experience for recipients with employment barriers, assistance for unemployed, needy, noncustodial
parents, and job retention and postemployment services.




U.S. Department of Labor - Office of Inspector General                                          Page 19
Welfare to Work Formula Grant Program Implementation Progress



                              TANF FUNDS SPENT ON WORK ACTIVITIES
                         FOR THE PERIOD JULY 1 THROUGH DECEMBER 31, 1998



                                                         Reported TANF
                                         State           Expenditures on
                                        Formula         Work Activities for
                                        Grantee          7/1/98 - 12/31/98

                                    California                $141,885,446
                                    Florida                    $41,075,913
                                    Illinois                    $6,163,955
                                    Michigan                   $53,277,682
                                    New Jersey                  $4,933,460
                                    New York                   $39,403,333
                                    Pennsylvania               $25,700,407
                                    Total                    $312,440,196
                                    National Total           $523,157,849
                                         Source: DHHS


The following discussion illustrates how the availability and use of other resources to provide workforce
investment services to TANF recipients affected the implementation of the WtW formula grant program
at the state and local agencies we visited:

        Florida

        In 1996, the Florida legislature enacted a welfare reform law entitled the Work and Gain
        Economic Self-Sufficiency Act (WAGES). WAGES has a work-first philosophy and
        authorizes the establishment of local WAGES boards in the State’s 24 SDAs designated under
        JTPA. These SDAs have since been designated as workforce development regions and
        boards. Florida allowed local communities to either combine their WAGES board with the
        workforce development board or establish separate entities. All but two workforce
        development boards chose to either merge or blend WAGES and workforce development
        boards and have a single administrative entity provide welfare and workforce investment
        services. Thus, local workforce development boards have multiple funding sources to provide
        workforce investment services to TANF recipients. Local workforce development board
        officials indicated that, until they could determine how the WtW program – with its restrictive
        eligibility and administrative requirements – could fit into their local delivery systems, they would
        continue to use TANF funds to serve the WtW eligible population.



        Michigan


U.S. Department of Labor - Office of Inspector General                                              Page 20
Welfare to Work Formula Grant Program Implementation Progress

       Michigan’s State plan for the WtW formula grant was approved in January 1998. Funds were
       obligated at the State level, and allocations were made to each of the State’s 26 workforce
       development regions. Local plans were submitted and approved. The local workforce
       development boards attempted to implement the program by identifying and recruiting WtW
       eligible recipients. However, all but one of the State’s workforce development boards notified
       the State that they were no longer interested in operating the WtW program because of its
       restrictive eligibility and administrative requirements. Michigan officials decided to suspend
       implementing the WtW formula grant program. The State provided TANF funds in place of
       WtW formula grant funds to the one workforce development board interested in operating the
       WtW formula grant program. We concluded that the availability of TANF funds allowed
       Michigan and its local agencies to serve WtW eligible recipients without spending WtW formula
       grant funds.
       New Jersey

       Discussions with officials in local agencies in New Jersey revealed a stronger interest in first
       spending either State or Federal funds available under the State’s welfare reform program,
       Work First New Jersey, rather than spending WtW formula grant funds. In fact, none of the
       local agencies we visited implemented the WtW formula program prior to June 1, 1999, 8
       months after New Jersey’s WtW plan was approved.

       New York

       In December of 1996, New York reorganized its Department of Social Services and
       transferred responsibilities to other departments. The WtW formula grantee, the State
       Department of Labor (NYDOL), received administrative control over the TANF block grant
       and all workforce investment services that were provided through TANF funding. New York
       has been very active in welfare reform programs since the 1980's and had already allocated
       over $500 million in State funds towards providing workforce investment services to welfare
       recipients before the WtW formula grant. We were told that TANF agencies are already
       delivering similar or the same workforce investment services provided by WtW and many of
       the WtW-eligible TANF recipients are already being served. State and local agency officials
       told us they plan to use the WtW funds, but it took approximately a year from the time their
       plan was conceptualized and approved until they were able to develop and implement the
       systems needed to integrate WtW with other workforce development funds.




U.S. Department of Labor - Office of Inspector General                                           Page 21
Welfare to Work Formula Grant Program Implementation Progress

        Pennsylvania

        In Pennsylvania, the WtW formula grantee is the Department of Public Welfare (DPW), which
        also operates the TANF program. DPW has a memorandum of understanding with the
        Pennsylvania Department of Labor and Industry to operate the WtW program through its
        SDAs. TANF recipients are initially assessed at DPW’s county assistance offices (CAOs).
        The CAOs have various funding sources, most of which comes from TANF, available to
        deliver workforce investment services to recipients. The recipients, in consultation with CAO
        staff, choose in which workforce investment program they want to participate. State and local
        agency officials told us that they attribute the low enrollment rates of TANF recipients in the
        WtW program, in part, to the variety of workforce development programs available. The
        officials said that these programs were more accommodating and less restrictive than the WtW
        program.

        California

        California’s county welfare offices attempt to place all TANF recipients in unsubsidized
        employment of at least 32 hours per week prior to referral to the WtW program. California’s
        WtW formula grant program generally provides post-employment services. However, the
        WtW program is voluntary for those TANF recipients working 32 hours a week. We were
        told that the WtW program is viewed as a temporary supplement to the State’s welfare reform
        program, CalWORKs.

The above results illustrate that, because of declining welfare caseloads, state and local agencies have
TANF and other funds available to provide workforce investment services to welfare recipients with
greater flexibility than is allowed under WtW. We conclude that the availability of these resources
explains, in part, why states and local agencies have not immediately implemented the WtW formula
grant program but at the same time have been able to provide workforce investment services to TANF
recipients.


                                                     The natural progression of events required to
 Complexities of Implementing a New
                                                     implement a new federally-funded program at
 Federal Program at the State and Local
                                                     the state and local levels has contributed to the
 Level
                                                     slow implementation of the WtW formula grant
                                                     program. The following points outline the
various milestones involved in implementing the WtW program:

        C       ETA published an Interim Final Rule in the Federal Register on November 18, 1997,
                implementing the WtW grant provisions of Title IV, Part A of the Social Security Act,
                as amended by the enactment of the Balanced Budget Act of 1997. ETA was required
                to obligate FY 1998 formula funds by September 30, 1998.


U.S. Department of Labor - Office of Inspector General                                          Page 22
Welfare to Work Formula Grant Program Implementation Progress

       C         ETA required states to submit a state plan for the use and administration of the formula
                 grant funds. ETA reviewed the state plans to determine if they met the statutory
                 requirements. Included in these requirements are assurances from the state that the
                 plan was developed in coordination with appropriate entities in local areas and
                 programs funded through the TANF block grant.

       C         ETA approved individual state plans as early as January 29, 1998 and as late as
                 September 30, 1998. The approval of individual state plans involved resolving major
                 issues such as state matching requirements, minimum wage requirements, and
                 determining which local agencies will be responsible for administering the WtW
                 program.

       C         Once ETA approved the state plans, individual states delivered planning instructions to
                 local agencies (i.e., workforce development boards, workforce investment boards,
                 TANF agencies, etc.). States had to obligate WtW funds by September 30, 1998.
                 Local agencies submitted plans which were reviewed and approved by the state. Upon
                 approval by the state, the local agencies initiated their local procurement process. In
                 some instances, approved local agency plans also had to be approved also by local
                 elected officials and a separate state agency responsible for state and Federal grants.
                 At each stage in the process, any issues that arose had to be resolved.

Following are examples of implementation problems found at the states visited:

       Florida

       Florida submitted its initial WtW State plan on April 6, 1998, and it was approved on
       September 25, 1998. The delay was necessitated by issues involving the designation of the
       State level grant recipient, the requirement that State level WtW funds be obligated by the end
       of the fiscal year, and development of an acceptable approach to meet the State matching
       requirement. Upon approval of the State plan, individual local area plans were submitted. By
       April 23, 1999, a full year after the State plan was initially submitted, 21 of the 24 local plans
       were approved. The delay in the submission and approval of individual area plans reflected
       local officials’ concerns regarding State matching requirements as well as the availability of
       alternative funding sources. In addition, local area delivery systems, which had been impacted
       by State welfare reform, were concurrently preparing for early implementation of WIA. WIA
       is a major reform of the Federal job training programs and creates a new comprehensive
       workforce investment system.




U.S. Department of Labor - Office of Inspector General                                           Page 23
Welfare to Work Formula Grant Program Implementation Progress


        New Jersey

        New Jersey’s WtW State plan was approved by ETA on September 25, 1998. The plan
        included a waiver request to designate TANF agencies as the WtW administrative agencies in
        five SDAs. The State reviewed and approved local workforce investment board addendums
        to previously developed WtW plans. Local WtW plans required the approval of local elected
        officials and had to be reviewed and approved by the State’s Department of Community Affairs
        before they could be implemented. The local procurement process could be initiated only after
        this approval was received.

        State officials told us they believe that the State and local approval processes were the principal
        causes for a low enrollment and expenditure rate. None of the five WtW local agencies had
        implemented its WtW formula grant program prior to June 1, 1999, which was 8 months after
        the State’s WtW plan was approved by ETA.

        New York

        The NYDOL WtW State plan was approved on September 11, 1998. Funding allocations
        were distributed to local agencies on September 30, 1998. New York City (NYC) received
        $58.5 million of the State’s $96.9 million WtW formula grant allocation. NYC designated the
        local TANF agency, the Human Resources Administration (HRA), to administer the WtW
        program. NYC’s plan is to serve disabled participants who will be terminated from TANF. In
        order to accomplish this, HRA must enter into formal agreements with various agencies.
        Specifically, HRA plans to combine TANF and WtW funds and enter into a cooperative
        agreement with the NY State Department of Education (NYDOE) to deliver the workforce
        investment services. NYDOE will operate the program through two agencies, which will
        contract with various providers under performance-based contracts. NYC plans full
        implementation of the program by August 1999.

        California

        California’s WtW State plan was approved on July 20, 1998, and the WtW program was
        implemented on October 1,1998. The State’s welfare reform program, CalWORKS, required
        that all participants had to be registered by December 31, 1998. This requirement delayed the
        development of cooperative relationships between county welfare offices and local agencies
        operating the WtW formula grant program.

ETA officials informed us that they have taken a number of proactive steps to assist grantees that are
having problems implementing the WtW program. These include regional conferences jointly
sponsored by DOL and DHHS, with representatives from Federal, state, and local TANF and WtW
agencies and programs. The conferences identified which inhibiting factors


U.S. Department of Labor - Office of Inspector General                                            Page 24
Welfare to Work Formula Grant Program Implementation Progress

were statutory, regulatory, or administrative and whether they were Federal, state, or local in origin.
The conference participants recommended solutions.


                                        *********** **

Some of the factors discussed in this section of the report have been addressed in program
modifications included in the President’s and Congress’ proposed reauthorization of the WtW program.
Concerning eligibility, proposals have been made to expand the number of barriers or participant
characteristics and reduce the number of barriers participants must meet from two to one. Concerning
financial reporting, proposals have been made to streamline and simplify the requirements. We are not
aware of proposals to address the matching provision.

To accelerate progress in implementing the WtW formula grant program, ETA needs to pursue these
legislative changes and work to address the other cited factors not included in the proposed
modifications to the law.



 Recommendations


We recommend that the Assistant Secretary for Employment and Training:

        1.      Work with the U.S. Department of Human Services’ Administration for Children and
                Families to develop a strategy that effectively integrates TANF and WtW so that all
                funding sources are used to provide workforce investment services to TANF and WtW
                eligible recipients.

        2.      Continue to pursue the legislative changes currently being proposed to simplify and
                expand the definition of eligible recipients more accurately to reflect characteristics of
                hard-to-employ, long-term, TANF recipients.

        3.      Continue to pursue the legislative changes currently being proposed to streamline and
                simplify the financial reporting requirements.

        4.      Explore with states not reviewed as part of this audit whether the matching requirement
                is an issue that affects their implementation of the WtW formula grant program, and
                seek appropriate legislative changes if needed.




U.S. Department of Labor - Office of Inspector General                                             Page 25
Welfare to Work Formula Grant Program Implementation Progress


       5.      Continue its proactive role in assisting states and local agencies that are having
               problems implementing their WtW program and provide the necessary technical
               assistance to help them address barriers that may be impeding progress in getting the
               program fully operational.




 Agency Response


       Prior to the issuance of our draft report, we provided the Office of Welfare-to-Work an
       advance copy for comment. The comments received were incorporated in the details of the
       draft report. In his response to the draft report, the Assistant Secretary for Employment and
       Training acknowledged that the Agency’s previous comments had been incorporated and no
       additional comments were provided.




U.S. Department of Labor - Office of Inspector General                                        Page 26
Welfare to Work Formula Grant Program Implementation Progress

                                                            APPENDIX A
          LIST OF STATE AND LOCAL AGENCIES VISITED AND FEDERAL
                       WtW FORMULA GRANT AWARDS
                                                          Total Federal Award       Percent of Local
                    State and Local Agency                   for States and         Agencies' Federal
                                                            Local Agencies           Award to State

                           California                         $190,417,247
         Los Angeles City                                             $32,080,062
         Los Angeles County                                           $22,153,146
         San Diego                                                    $11,837,010         39%
         Fresno                                                        $7,454,107
         Total                                                        $73,524,325
                            New York                           $96,886,094
         New York City                                                $58,483,523
         Buffalo/Erie/Cheektowaga                                      $3,676,328
         Rochester City                                                $1,926,488         68%
         Suffolk County                                                $1,501,134
         Total                                                        $65,587,473
                             Florida                           $50,756,512
         Miami                                                        $11,403,261
         Broward WDB                                                   $3,052,751
         First Coast WDB                                               $2,938,846         40%
         Central Florida                                               $3,131,649
         Total                                                        $20,526,507
                             Illinois                          $48,662,838
         Cook County                                                   $2,074,209
         Chicago Mayor's Office                                       $27,443,586
         SDA #25 -Zeigler, Ill                                         $1,055,468         67%
         SDA #24 St Clair County                                       $2,075,188
         Total                                                        $32,648,451
                         Pennsylvania                          $44,295,711
         Philadelphia PIC                                             $17,112,693
         Fayette/Westmoreland                                          $1,517,509
         Allegheny County                                              $2,688,163         52%
         City of Pittsburgh                                            $1,596,977
         Total                                                        $22,915,342
                            Michigan                           $42,226,331
         Detroit                                                Not Visited
         SE Mich                                                Not Visited
         Jobs Central Flint Mich                                Not Visited
         Saginaw/Midland/Bay                                    Not Visited
         Total
                          New Jersey                           $23,257,092
         Essex/Newark                                                  $6,170,207
         Hudson                                                        $4,476,023
         Passaic                                                       $1,547,236         61%
         Camden                                                        $1,913,598
         Total                                                        $14,107,064
         Total Formula Awards to Local Agencies Visited             $229,309,162          46%
         Total Formula Awards to States Visited                     $496,501,825
         Total Formula Awards to All States                       $1,025,787,658
         Percent of Formula Awards to Local Agencies Visited to Total for All             22%
         States
         Percent of Formula Awards to States Visited to Total for All States              48%

U.S. Department of Labor - Office of Inspector General                                                  Page 27
Welfare to Work Formula Grant Program Implementation Progress




U.S. Department of Labor - Office of Inspector General          Page 28
Welfare to Work Formula Grant Program Implementation Progress

                                                                                 APPENDIX B




       FEDERAL EXPENDITURES AT THE TIME OF OUR AUDIT FIELDWORK



                       State        FY 1998          Total         Percent of
                      Formula       Federal         Federal         Federal
                      Grantee     Grant Award     Expenditures    Expenditures

                   California      $190,417,247     $25,003,066      13%
                   New York         $96,886,094      $2,353,497       2%
                   Florida          $50,756,512        $482,796       1%
                   Illinois         $48,662,838     $16,723,811      34%
                   Pennsylvania     $44,295,711      $2,558,211       6%
                   Michigan         $42,226,331              $0       0%
                   New Jersey       $23,257,092        $501,046       2%
                   Total          $496,501,825     $47,728,699       10%




U.S. Department of Labor - Office of Inspector General                               Page 29
Welfare to Work Formula Grant Program Implementation Progress

                                                                                           APPENDIX C


               FEDERAL EXPENDITURES AND RECIPIENTS ENROLLED
             AT THE TIME OF OUR AUDIT FOR LOCAL AGENCIES VISITED


                                                                                   Percent of
     State             Local Agency         Total Federal     Total Federal         Federal   Recipients
                                               Award         Expenditure as of    Expenditure Enrolled as
                                                                 Audit             to Award    of Audit

                 Los Angeles City              $32,080,062             $465,958       1%               79
                 Los Angeles County            $22,153,146           $2,174,776      10%              112
    California   San Diego                     $11,837,010           $2,614,341      22%              493
                 Fresno                         $7,454,107           $1,003,178      13%              131
                 Total                        $73,524,325           $6,258,253       9%              815
                 New York City                 $58,483,523              $22,409       0%                0
                 Buffalo/Erie/Cheektowaga       $3,676,328             $166,816       5%               19
   New York      Rochester City                 $1,926,488                   $0       0%                0
                 Suffolk County                 $1,501,134             $454,790      30%              231
                 Total                        $65,587,473            $644,015        1%              250
                 Miami                         $11,403,261              $25,000       0%                0
                 Broward WDB                    $3,052,751                   $0       0%                0
     Florida     First Coast WDB                $2,938,846                   $0       0%                0
                 Central Florida                $3,131,649                   $0       0%                0
                 Total                        $20,526,507              $25,000       0%                 0
                 Cook County                    $2,074,209             $466,702      23%              529
                 Chicago Mayor's Office        $27,443,586           $7,270,535      26%            2,929
     Illinois    SDA #25 -Zeigler, Ill          $1,055,468             $670,260      64%              154
                 SDA #24 St Clair County        $2,075,188           $1,848,844      89%              351
                 Total                        $32,648,451          $10,256,341       31%           3,963
                 Philadelphia PIC              $17,112,693           $2,336,177      14%            6,815
                 Fayette/Westmoreland           $1,517,509                   $0       0%               64
  Pennsylvania Allegheny County                 $2,688,163                   $0       0%                0
                 City of Pittsburgh             $1,596,977                   $0       0%               37
                 Total                        $22,915,342           $2,336,177       10%           6,916
                 Essex/Newark                   $6,170,207              $98,970       2%                0
                 Hudson                         $4,476,023              $50,000       1%                0
   New Jersey Passaic                           $1,547,236                   $0       0%                1
                 Camden                         $1,913,598              $50,000       0%                0
                 Total                        $14,107,064            $198,970        1%                 0
 Total for All Local Agencies                $229,309,162          $19,718,756       9%           11,945



                                                                                           APPENDIX D



U.S. Department of Labor - Office of Inspector General                                            Page 30
Welfare to Work Formula Grant Program Implementation Progress

              LIST OF LOCAL AGENCIES WITH ENROLLMENTS OF
                    LESS THAN 100 AND EXPENDITURES OF
           LESS THAN 10 PERCENT OF THE FEDERAL AWARD AMOUNT

                                                        Actual       Percent     Actual
                                      Total           Expenditure   of Actual   Enrollment
               Local Agency          Federal             as of         to         as of
                                     Award              Audit        Award        Audit
         Rochester City                  $1,926,488              $0    0%                 0
         Central Florida                 $3,131,649              $0    0%                 0
         Broward WDB                     $3,052,751             $0     0%                0
         First Coast WDB                 $2,938,846             $0     0%                0
         City of Pittsburgh              $1,596,977             $0     0%               37
         Passaic                         $1,547,236             $0     0%                1
         Camden                          $1,913,598        $50,000     0%                0
         Fayette/Westmoreland            $1,517,509             $0     0%               64
         Allegheny County                $2,688,163             $0     0%                0
         New York City                  $58,483,523        $22,409     0%                0
         Miami                          $11,403,261        $25,000     0%                0
         Hudson                          $4,476,023        $50,000     1%                0
         Los Angeles City               $32,080,062       $465,958     1%               79
         Essex/Newark                   $6,170,207         $98,970    2%                 0
         Buffalo/Erie/Cheektowaga       $3,676,328        $231,650    6%                19
         Total - 15 Local Agencies   $136,602,621        $879,153     1%               200
         Percent to Total             60%
         Awarded to 24 LAs
         Percent to Total Awarded
         to Seven States              28%




U.S. Department of Labor - Office of Inspector General                                        Page 31
Welfare to Work Formula Grant Program Implementation Progress

                                                                                                 APPENDIX E


                 MATRIX OF IMPLEMENTATION FACTORS FOUND AT
                      STATE AND LOCAL AGENCIES VISITED

                            Availability of TANF                   Financial       State         Implementation
 State/Local Agency                Funds            Eligibility    Reporting      Matching        Complexities
 California                          X                  X               X                              X
 Los Angeles City                    X                  X               X                              X
 Los Angeles County                  X                  X               X                              X
 San Diego                           X                  X               X                              X
 Fresno                              X                  X               X                              X
 New York                            X                  X
 New York City                                                                                         X
 Buffalo/Erie/Cheektowaga                               X
 Rochester City                      X                  X                                              X
 Suffolk County                      X
 Florida                             X                  X               X              X               X
 Miami                               X                                  X              X
 Broward WDB                         X                  X               X              X
 First Coast WDB                     X                  X               X              X
 Central Florida                     X                  X               X              X
 Illinois                                               X
 Cook County                                                            X                              X
 Chicago Mayor's Office                                 X               X
 SDA #25 -Zeigler, Ill                                  X               X                              X

 SDA #24 St Clair County                                                X
 Pennsylvania                        X                  X
 Philadelphia PIC                    X
 Fayette/Westmoreland                X                  X
 Allegheny County                    X                  X                                              X
 City of Pittsburgh                  X                  X                                              X
 Michigan                            X                  X               X              X
 New Jersey                          X                  X               X                              X
 Essex/Newark                        X                  X               X                              X
 Hudson                              X                  X               X
 Passaic                                                X               X                              X
 Camden                                                 X               X                              X
 State Total                    6 of 7 (86%)       7 of 7 (100%)   4 of 7 (57%)   2 of 7 (29%)    3 of 7 (43%)
 Local Agency Total            16 of 24 (67%)      18 of 24(75%) 16 of 24 (67%) 4 of 24 (17%)    13 of 24 (54%)




U.S. Department of Labor - Office of Inspector General                                                     Page 32
Welfare to Work Formula Grant Program Implementation Progress

                                                                APPENDIX F




              APPENDIX F - AGENCY’S RESPONSE TO DRAFT REPORT




U.S. Department of Labor - Office of Inspector General              Page 33
